n

,

P
FILED
DEC 12 2020

2Q9=75 it 3

OFFICE OF THE CLERK
SUPREME COURT U.S. j

IN THE
Supreme Court of the United States

LORETTA JONES,

Petitioner
V.

NEW YORK POLICE DEPARTMENT et al.

Respondents
On Petition for Writ of Certiori to
The United States Court of Appeals for the Second Circuit
PETITION FOR WRIT OF CERTIORI

RECEIVED

Loretta Jones
Pro Se Plaintiff
290 East 3rd Street, 4i
New York, NY 10009
(917)439-2292

MAR 1 9 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

0

QUESTIONS PRESENTED
Entities responsible for our country's over incarceration and institutional
racism are today taxed with uses of both new and old technologies that fail to
provide proof of oversight to the public and I'm suffering them.
Law enforcement are banding together in use of weaponry against us all,
including technology that remotely discharges:
sound/spoken voice infliction
gas, chemical and odor deployment
precision cutting and piercing, and
muscle and body manipulation.
Shouldn't we have mechanisms in place to guard against the same over-reach
and encroachment plaguing communities of color but that today are poised to target
every member of the general population falling under category of 'imminent danger'
when suspected simply of not washing their hands, for example, during Covid
times?
The old saying rings true that if you don't stand against injustice, soon it
comes for you.
Today's technologies, remotely launched, like those listed above, need
oversight same as an officer's gun or taser. Reports should be written and records
retrievable by the targeted and assailed, at least.
Isn't it just as important to one's Constitutional protections as any,
irregardless of whether their situation be incarceration, accusation or investigation?

1

Further, public scrutiny always.proves to be a safeguard. Mustn't it be afforded
here?

2

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[vKAll parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Re-S9-c, euk c1.44.±s

Dee:Li-4-1,4,e Ai

c Pa!

1-1

NeAA) Lio

New Yo rik._
tA.,vtt feat 54-0- ez

re_dergLi

Amer icxx.
T-w ve-s-i-to..-F

ke

RELATED CASES

raj- iav e-5 j.

N 1),D e+.4),(7 No. /9-c....v-117 qi LA .s,

Go cAr.-÷ -Pr
uctyvt

jories

+-he Su t.c-t-hern rs.fre'et
e,vvftr•ect bee-e"k% 10

N
42.0

Ny lab etad., No. 020-01vo
S-e-C,anot C
IS4o r

APB' Qa.
.2,m-ere of kot_5(it_s+ 7) 020 az.

or k_

,a v 1 9 .
Co
icA4/51,ne,u-f-

TABLE OF CONTENTS

Questions Presented

1-2

List of Parties

3

[Table of Contents]
Table of Authorities

5

Citations

6

Opinions Below

7

Jurisdiction

8

Statement of Jurisdiction

9

Constitutional Provisions, Treaties, etc.

10-13

Statement of the Case

14-30

Reasons for Granting the Writ

31-33

Conclusion

34-37

Index to Appendices

38-39
Appendix A01-H

Appendix Exhibits
Forma Pauperis Affidavit

f or%

Appendix I

4

TABLE OF AUTHORITIES

CASES

Triestman v. Federal Bureau of Prisons
Norfolk & Western Railway v. Ayers

PAGE NUMBER

37
12, 33, 36

STATUTES AND RULES

OTHER

5

CITATIONS

On August 7, 2020 the United States Court of Appeals for the Second Circuit
ORDERED that motion to proceed in forma pauperis be DENIED and DISMISSED
the appeal "because it 'lacks an arguable basis either in law or in fact.'"

On December 13, 2019 the United States District Court for the Southern District of
New York ORDERED to authorize "Leave to proceed (in this Court) without
prepayment of fees..."

On December 20, 2019 the same court ORDERED to DISMISS as frivolous and
stated that any appeal from said order would not be in good faith and denied `IFP
status' for an appeal.
On December 20, 2019 the same court ORDERED, ADJUDGED and DECREED
that the action is dismissed as frivolous, CERTIFYING that any appeal from said
judgment wouldn't be taken in good faith. It also further "ORDERED that the Clerk
of Court note service on the docket".

6

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review

the judgment below.

OPINIONS BELOW

[ ] For cases from federal courts:
ndix
The opinion of the United States court of appeals appears at Appe
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[V] is unpublished.

A

to

ndix & to
The opinion of the United States district court appears at Appe
the petition and is
; or,
] reported at
[ ] has been designated for publication but is not yet reported; or,
[s unpublished.
[ ] For cases from state courts:
rs at
The opinion of the highest state court to review the merits appea
to the petition and is
Appendix
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the
is
to the petition and
appears at Appendix
; or,
[ ] reported at
has been designated for publication but is not yet reported; or,
[
[ ] is unpublished.
6

7

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
twas Aw
[v(No petition for rehearing was timely filed in my case.
of
[ ] A timely petition for rehearing was denied by the United States Court of
the
Appeals on the following date:
order denying rehearing appears at Appendix

{

, and a copy

An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including
A
in Application No..

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including
A
Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. §1257(a).

n
STATEMENT OF JURISDICTION

It seems the orders and decisions rendered in the lower courts, both the
district court and that of appeals, bear jurisdiction of the United States Supreme
Court since the matter is of high importance to implementation of laws, safeguards
and human dignities within our United States of America.

Those lower courts appear to have failed, in error, to employ their own
application of the strongest legal argument the case was trying to make, as they
otherwise found rightfully compelling to ascertain in a 'Pro se case'.

Even more so, the constitutional questions present in the original complaint,
ask that supreme review shore up today's technologies with the overriding and.
fundamental laws of our land, the United States Constitution, just as this highest
court protects and presides.

9

CONSTITUTIONAL PROVISIONS

U.S. Constitution, 4th Amendment "The right of the people to be secure... against
unreasonable searches and seizures, shall not be violated, and no Warrants shall
issue but upon probable cause, supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or things to be, seized!'

Case contends this to mean: transparency and accountability that
documentation of an impositional act brings is of utmost importance not just to the
influencing of how responsibly the act gets carried out but to the actuals of
security/human sanctity. Guaranteed security against unreasonable official
encroachment shall not be violated and when reasonably abridged, must be done so
with the strictest practice of protocols and report—owing to those persons or things
being violated, not solely to government-only, superceding, or systemic forces that
don't turn over to the target an accounting. The concept of being secure cannot be a
facade, it is written in the law as an actual. On issue of duration, it is no more
reasonable to have government set up shop in/ against one's body cavities, person,
home, computer,... indefinitely, physically by an officer than it is by means of
technology by groups of officials that now can invade for years on end as if since the
hand, tool, means, has changed, so too their right. That defies the law.

U.S. Constitution, 5th Amendment "No person shall be... deprived of life, liberty
or property, without due process of law; nor shall private property be taken for

10

public use, without just compensation."
Case contends this to mean: Government does not get to keep their hands in
the honey jar of private citizens, so to speak, taking and seizing at will, without due
process or lust compensation. Both of those notions bear within them inherent
parameters. Starts and stops to be well defined. Due process and just compensation
hold boundaries. Neither can pertain to limitless official acts, no matter that today's
technologies make such actions possible to go on without end and without
permissions' to enter so 'agents' or actors can come and go as they please.
Permissions, like the opening of a door, per se, may not be needed anymore, but the
law itself doesn't change. The spirit and intention should withstand the changed
times. The obligations and constitutional promises 'to make one whole' again, like
that which aimed for by due process and just compensation, remain.

No one's supposed to feel law enforcement is their Damocles Sword, to borrow
the phrase, placed over a life's every move, taking profit and gain unrecorded,
freezing liberties and freedoms, intruding by uses of technology that they operate
from unprofessional and such auspices that actually include their own bedrooms
and other such inappropriate places from which the operating officials and agents
impose 24 hours a day, 7-days a week, for years on end. Just because the home
invasion, for example, can be carried out by hidden technology, doesn't mean it
should. The 5th Amendment demands due process, in order to, be reasonable, and
compensation, in order it be just, have a beginning and an end, a certainly

11

particular and specific act/ accounting, as opposed to an open seat in a person's
home, for example. Not just monetary for property but closure in the mind, that the
property or other has been taken and the take is defined.

U.S. Constitution, • 6th Amendment "...the accused..."
Case contends this to mean: a category, and with such, again, parameters.
The abusive, hyper-surveillance measures law enforcement is claiming are the new
way of incarcerating some in their own homes against one's will or humanity without
due process or other, is ludicrous and unconstitutional. By accusing only from
sidelines, they're playing cutesy with the law and blatantly breaking it.

U.S. Constitution, 7th Amendment "In Suits at common law... the right of trial
by jury shall be preserved..."
Case contends this to mean: the defendants' perversion of the public at large,
that they use to invade my home, person, effects, reputation, has made notion of a
jury pool practically and probably, impossible, in defiance of this law.

U.S. Constitution, 14th Amendment section 1 "...nor shall any State ... deny to
any person within its jurisdiction the equal protection of the laws."
Case contends this to mean: the way the various groups of law enforcement
have denied my rights based on their racial bias and gender maligning, playing at
ineffective and wholly illegitimate purposes, like how I do my hair or a look I choose

12

for my day or myself, has been on their part, unlawful and for me, unacceptable.

13

STATEMENT OF THE CASE
The New York Police Department, using new and old technologies unknown
to the public is harming individuals deemed a 'threat' as well as those they
'question', without asking a single thing, accomplishing nothing more than
affirmation of their own hypothetical theories and stories to thrill themselves, as
I've unfortunately witnessed. In my case, they've done so by spreading false
accusations to those they solicit for assistance in surveilling me, in my bathroom,
bed and everywhere, by government and bad actor encroachments upon me cloaked
as investigations.
For years, they pretend they're seeking to find out a person's state of mind,
among other things, as if relevant when impacting others, like with parent-to-child,
judge-to-rulings, doctor-to-patient,... and now, with Covid, person-to-public in
instances so simple as surveilling hand-washing during bathroom use in
individuals' homes to examining how a person wipes themselves each and every
time they use the bathroom. They continue such perverse intrusion in the person's
workplaces and anywhere frequented(at the beginning of them telling me they were
doing this, and demonstrating their presence and ability to observe, I listened alright
and though I had stellar bathroom habits, thought they were none of anyone's
business so I took my business to public restrooms, even walking 6 blocks to a
hospital emergency room to get a ticket of arrival, with a time stamp to document
their ill effect, and even still, they enjoyed showing me they could do all the same
intrusions of privacy anywhere), claiming they have to make sure the target doesn't
14

stray from the ordinary, use a different hand for example, indicating state of mind,
like multiple personality or something. They did this to me until got a diagnosis, of
course, albeit confoundedly, but still, I, same personality, grew same determination
to kick their

. Ridiculous? Yes. Laughable? Not yet. If they'd stopped there one

might be inclined to leave such buffoons to their own devices. But they don't stop
there. They imagine what would be the worst thing they could see in those
bathroom stakeouts and then go about trying to create scenarios to look like that
were occurring and they even put people in place to observe their stagings and
frauds. Dumb people who'd go to such places of other people's business. Who then
bear false witness, all too happily taking part in salacious, bathroom business with
the NYPD. Since I put soap on a tissue, a better alternative than flushable wipes
that really aren't to be flushed, those harassing me stage a viewer as moronic as
them to cut in at the moment they deviously choose, to view me in there with only
their technology that sees radiating heat waves and such, cutting the new observer
out of their other technology loops that include them all--full color, HDTV, X-ray,
all... and they leave the person to guess what's happening, or outright lie to be
consistent and in line with those setting him/her there, and as I heard and
witnessed, they get them as dumb as their Debra Falcone who screamed falsely out
the window behind mine that "She's putting it back in!" Don't imagine, I'll tell you
like it is. They force me to hear their every fraud so I know them pretty well and the
worst part is; I can't get rid of them. 12 years they've been forcing me to hear them.

15

I wouldn't share Starbucks with them. I'd leave. There's no way I'm going to
continue to share my home, workplace and everyplace with these bombastards. I'm
taking action here in this case to stop them. I'll tell it like it is and hope and pray
you'll see the need that I see to require their uses of technologies and entitlements
to be measured, recorded and thereby aimed at being in the very least, dignified.
They need you more than I. Before they give us all a bad name. Afterall, they
represent New York City, New York State and our country.

And, there's more. With all our domestic land deemed 'war territory' after
9/11, they act with military to release chemical agents into the air of their 'targets'
again in the targets' home, workplace and places of frequency, even on open public
streets and sidewalks using compliance of landlords and buildings facilitators to
perpetrate such allowances as picking apartments to occupy, etc. They claim the
right to dispense lethal force with technology that disguises their assaults as if
cancer, lesions on the inside of a body. I've had to use plastic drop cloths to block out
fumes when first made aware of chemical assaults against my home back in
2005(now I just use fans directing air in and out of my windows) and pots and pan
lids to protect myself from remotely inflicted 'prick-of-a-pin' injury while sleeping in
my bed. I shouldn't appear to make light of that. They also have a slicing technology
that their Vanessa Light threatened to give me a "colostomy bag" by, to which I said
I'll label it "Work of the NYPD" and wear it boldly. Honestly though, with facemask
and hair scrunchee it's all I can do to not forget my pants, I don't need another

16

thing to remember.

The fact that the defendants hide does not mitigate their actions or remove the
facts from real into imaginary and this lawsuit is not frivolous to speak of the
atrocities. That takes strength, ownership of the gravity of the situation, to bring it
forward to a court. To the public record. This case may not be easy, but it is true,
straightforward, practical, sound and serious.

A) The facts are as follows:
The defendants did engage in conspiracy to defraud—
In January 2009, as numbers of times before and since thru present in
a pattern by 2019 discernable, the defendants placed a person to
impersonate me in act to pretend I didn't work where I had worked,
falsely. At Project Enterprise in Harlem, an agent of the defendants known
to me only by her e-mail, laughingly told of how she was "an executive at
Bloomingdale's and then went into visual display"(my actual background and
unique and unusual career path that I hadn't yet described to this group of 5
of us at that small organization where others would vote on whether to fund
your business venture with a $1,000 grant. She then, the next week, still
before I got to say anything, said she actually was a hosiery salesperson in
Bloomingdale's. I worked at Bloomingdale's after being recruited out of
college into their executive program and left 2 years later for a better
17

opportunity after being promoted to the buying office as an assistant buyer to
a Tony Spring who is now Bloomingdale's president, and he remembers me,
though may want to forget me, I had trouble keeping up and he spoke faster
than a seasoned auctioneer. The groups of law enforcement defrauding me
have for years on end tried to undo my work experience. They make me hear
them say things like "No you didn't" while working on my resume, and then
make me watch as accomplices of theirs are all too eager to become the bad
actors these groups then rely on to perpetrate frauds undermining my work
experience or defrauding it altogether. (please see exhibit of evidence A01)

In September 2008, as numbers of times before and since thru present
in a pattern by 2019 discernable, at a homeless shelter called the New Dawn,
the defendants bullied the staff to change procedure of allowing
residents to sign the attendance log at whatever time they chose, as long as it
was daily, to secure their space and not lose their family's beds. Their
`hidden', undercover influence became clear because the first night of the new
rule to sign the book at precisely 10PM I witnessed a younger white male
dressed in plain clothes who I've now come to recognize stalking me through
the years, storm out of the lobby area where he'd been obeerving me and the
others on a single-file line and he yelled "Her neck's too long!" as he went into
a shelter staff door, not recognizable as any shelter staff I'd encountered
there before. As I casually looked around for answer as to what was irritating

18

him so much about those I was in line with, I noticed all the people in line
looked just like me, wearing their hair like me, face structure like mine, hair
and skin color like mine, dressed like me. It was an anomaly not seen before,
not in the welfare offices, not in the workers' comp office, not in the Path
homeless intake center, riot anywhere. Since, I've been coveted by people
apparently trying to impersonate me. The groups harassing me take up
apartments and spaces next to where I reside, and according to their
harassment and claims, they pass the person off as me, having them do the
things they wish they could say about me eagerly trying to criminalize me
over the course of my lifetime. They want me to look a certain way, for their
stories, for their permissions. They seem to really believe their lies about me
and appear perfectly at home tampering with evidence that refutes their
beliefs. (please see exhibit of evidence A02 to present later )

The defendants did engage in conspiracy to disseminate false
information
In May 2003, as numbers of times before and since thru present in a
pattern by 2019 discernable, the defendants led slander of me as a liar,
causing a librarian behind the desk at the Avon Free Public Library, Avon, a
place in. Connecticut where I made my home renting an apartment similar to
the one I had in Piermont NY where the fire department demanded I and
other residents move so they could lower the rents to have young guys move

19

in and volunteer to become firefighters... to inform me "You have a dark
cloud that follows you", after I finished perusing their non-fiction section one
afternoon, a routine I took up upon dropping my son off at their chess club,
and as I walked away still puzzled I heard her say to another desk
receptionist "They say she's a perpetual liar". Having hardly ever talked to
anyone, I also certainly hadn't lied about anything but had in fact witnessed
a middle-aged white man run in behind me as if begrudged, directing
unwarranted angst and hostile expression toward me as he entered the
library I was exiting. A later NY Times article showed a Connecticut Library,
not this one in Avon, however, to take a stand against undercover police
officers compelling them to assist in 'surveillance' of 'suspects', or 'targeted'
individuals without a warrant, and those librarians said "No.", if finally.
(please see exhibit of evidence A03 to present later)

In 2007, as numbers of times before and since thru present in a
pattern by 2019 discernable, at a Westchester shelter I witnessed another.
`resident', who seemed more like one of their planted undercover actors, tell a
group of mothers I was a "black widow murderer" after I had organized a
`community group' to help us empower each other and rise above our poverty
circumstances into independence. When I make any gains at building.a
confidence; friendship or camaraderie the defendants wratchet up their

20

things they say about me to more severe, to undo my
'accomplishments', or gain. (please see exhibit of evidence A04)

The defendants did engage in conspiracy to cover-up a crime—
In 2009, as numbers of times before and since thru present in a
pattern discernable, when the defendants began forcing me to hear them and
their dangerous and vile shenanigans with speaker/microphone technology
which I reported to the local District Attorney's office in Harlem, two of their
female actors who I've also come to recognize stalking me, walked past me
talking about "hearing them too" and added "They're really bad though."
Apparently not doing anything to stop the brutal assault onto my
privacy and life, merely using it as gossip, all the while acknowledging
the wrongfulness. As long as it's to someone like me, who they can believe
such terrible things as the groups were spreading about me, then it's ok to
allow a crime to take place, a home and life invasion of sorts. As long as it's to
someone of color, I contend, then they don't have to act against the crime
being perpetrated. (please see exhibit of evidence A05 to present later)

In 2009, as numbers of times before and since thru present in a
pattern by 2019 discernable, a group of actors of the defendants' who came to
occupy apartments aside the shelter I was housed in with my then 15 year
old son, yelled from across the street as I walked round the corner of 110th

21

Street and Broadway, "Daaaddy, Daaaaddy!" "That's not rape Lorettaaaaa f'
about Order of Protection I'd gotten against their Ciro 'Junior' Barone years
and years earlier when my son was 3. Their Junior Barone, a former NYPD
and mafia felon who took my right to say no to him, told me non-stop to call
him things like "Daddy", in my home where the groups stalking and
harassing me claim to have surveillance footage of, and since I complied, and
chose not to put my life on the line to fight him off/resist him until he
assaulted our son while a toddler, my son and I survived. I rightly got said
Order of Protection from Staten Island Richmond County Family
Court which these groups of defendants / respondents try to reverse
outside of court. Though I never called what Junior Barone did to me 'rape'
per se, saying the fact simply that "he took my right to say no to him" in all
intents and purposes, it most definitely was rape. Anyone listening to the
"Daddy" parts also had to hear him telling me to call him that, over and over,
and had to hear his threats against my life if I tried to get away from him or
embarrassed him They had to hear it or at least had to know they were
hearing half the exchange. They knew painting it as if they were authorities
on the subject, trying to wipe out what I said and say about it, was a
cover-up. And one I couldn't answer because they did it from across a street
and shirked taking responsibility for their own words when I looked at them
that first day on my shelter's block. They looked away as if only talking to
themselves. They were recognizable, one a childhood friend I named here

22

fl

earlier now known to be being paid by the defendants and even having
received a NYC apartment from them where she yells frauds about me out
her windows and gives false 'witness' to watching frauds and proclaiming lies
about them, right behind my now lower eastside apartment which I love and
for which I pay affordable rent; and another a former co-worker and U.S.
Marine though the two had on wigs, .and they immediately looked straight
ahead of themselves on their stretch of sidewalk across the street on 111th
Street between Broadway and Riverside Drive, where I was walking to my
shelter located at 640, same block, leaving me nothing to do but continue on
down the block or look like a crazy person and start addressing their lewd
and lascivious, masqueraded 'cover-up'. (please see exhibit of evidence A06)

The defendants did engage in conspiracy to disenfranchise—
In 2006, as numbers of times before and since thru present in a
pattern by 2019 discernable, while I was dependant on Workers'
Compensation the defendants did influence the board not to carry out lawful
obligations and were heard, saying behind a plexiglass partition at the
Harlem New York City wcb office "Don't help her!" They did the same at
places of my medical care where they were heard saying "She was a dancer!
Now she's saying..." and other incidents where the defendants used their
status to gain access to behind-the-scenes entrusted to blatantly

23

discourage rightful action that would otherwise have aided my stance,
health, abilities and wholeness. (please see exhibit of evidence A07)

Thru present, some people acting for the defendants are just plain
jealous. Jealous when the truth, or God's blessings, don't match up to their
'pre-conceived notions of me, their theories, and where they say they would
like to see me and then I see their acts against me escalate. For every good
thing for which I can be grateful, they want to harm me threefold.
Jealous individuals should never have that kind of reach into a
'person's innermost life nor workings. They don't simply try to undo
benefit or gain, unto my life/standing wherever they see it, they want and do,
take those things for themselves and theirs, engrandising themselves with
things as simple as hours of pay, same photography shots and art angle I
used in my work so intellectual property and processes, and so on. (please see
exhibit of evidence A08)

The defendants did engage in conspiracy to mislead other law
enforcement by performing equivalent of a stop and frisk in attempt to
criminalize my .innocent actions—
In 2019, as numbers of times before and since thru present in a
pattern by 2019 discernable, the defendants did run up on me to within half
an inch of me, the middle-aged man and woman then standing upon my back,

24

forcing me from the spot I'd just stood in, in public while I was taking a
photograph and effectually pushing me with bodily force that impacted me
mentally, of course engaging my wherewithal to move away. Away from the
photography work I was there to achieve. The 2 law enforcement actors are
recognizable to me as part of the groups harassing, stalking and abusing me.
On every level,,what they did was wrong and ineffective. While I didn't get
the angles for which I went to the Freedom Tower that day, working on a
series of postcards showing Greenery in NYC, I did still get the picture they
interrupted. If law enforcement has to run up on individuals taking picture of
the Freedom Tower, in the name of protecting it, it seems to me they have a
management problem failing on every front. If a picture is dangerous, then
don't allow them or put up a sign telling the public "No Pictures". Let those of
us in the trade, like me as a licensed NYC Sightseeing Guide since 2017,
register for permission to take a photo. Register for a time slot. Law:
enforcement, even and especially when in the puffery of disguise,
behaving lawlessly against my rights harms not just me, but them
and anyone witnessing the egregious act. I'm quite sure they
wouldn't have run up on me and stood against my body if I were a.
male, and certainly wouldn't have taken such liberty of overreach if I
weren't a person of color. If all this money later, and all the entitlements
they've used, haven't gotten our law enforcement agencies further than
having to run up on a person taking a picture, then they have failed and are..

25

culpable of the harm it caused me, my work, my reputation and my psyche.
(please see exhibits of evidence A09)

In 2007, as numbers of times before and since thru present in a
pattern by 2019 discernable, the defendants did pervade my human
resources administrations, as I witnessed and heard, and led
agencies to put in writing wrong amounts of my income, same as they
were forcing me to hear them claim.. When agencies inflated my workers'
comp for example, and now my unemployment/social security; I'm not only
left with a lower welfare or other amount with which to live, but I'm smeared
as if wrongdoing, when innocent. (please see exhibits of evidence A10)

For the following legal issues and facts, please allow me to define them during the
course of the case, if you should so decide to accept this request for a Writ of
Certiorari:

The defendants did engage in conspiracy to squander public resources and
betray entitlements—
(please see exhibits of evidence to be presented)

The defendants did engage in conspiracy to stage a crime in order to feign
vigilante justice-

26

(please see exhibits of evidence to be presented)

The defendants did engage in conspiracy to steal and peddle stolen
intellectual property .—
(please see exhibit of evidence to be presented)

The defendants did engage in conspiracy to commit malice and mischief—
(please see exhibit of evidence to be presented)

The defendants did conspire to violate me with sound inflictions—
(please see exhibit of evidence to be presented)

The defendants did engage in conspiracy to commit sexual assault—
(please see exhibit of evidence to be presented)

The defendants did engage in conspiracy to commit bodily injury and
violence—
On..., the defendants did threaten to "Give (me) a colostomy bag" and
did violate me with inflictions of remote technologies that.
(please see exhibits of evidence to be presented)

27

The defendants did engage in conspiracy to commit gang assault and
outnumbering—
(please see exhibits of evidence to be presented)

The defendants did engage in conspiracy to against law commit
self-engrandisement for themselves, cohorts and individuals I had cause
against;
(please see exhibits of evidence to be presented)

The defendants did engage in conspiracy to take up a government position
in and occupy my home, workplace, grocery store, etc. claiming law
enforcement entitlement to do so—
.(please see exhibits of evidence to be presented)

B) The arguable basis of law, whether against United States Constitution, is as •
follows:

That defendants actions, as outlined above, in 2009, 2010, 2011, 2012... plus
in the further past and of recent thru today in a pattern finally now
recognizable violate 4th Amendment laws of the U.S. Constitution-

28

n
By denying me the right to be secure "(in my) person(s), house(s), papers and
affects..." as is guaranteed by the 4th Amendnient, the defendants are behaving
unlawfully. Violations, when given to such law enforcement should at the very least
be brief and always warrant documentation retrievable in stringent report and
record. (please see exhibit of evidence BO )

That defendants actions, `as: outlined above; in 2009, 2010, 2011 2012... plus
in the further past and of recent thru today in a pattern violate 5th
Amendment laws of the U.S. Constitution—
. By "depriving (me) of life ... liberty, or property, without due process of law."
(please see exhibit of evidence BO )

That defendants actions, as outlined above, in 2009, 2010, 2011, 2012... plus
in the further past and of recent thru today in a pattern violate 6th
Amendment laws of the U.S. Constitution—
By deeming me "the accused" but not confronting me, doing it just out of
reach of the arms of law, so I can't "enjoy ... impartial(ity) inform(ed)...
knowledge of who my accusers are... stop of unnecessary delay... right to a
lawyer..." (please see exhibit of evidence BO )

29

That defendants actions, as outlined above, in 2009, 2010, 2011, 2012... plus
in the further past and of recent thru today in a pattern violate 7th
Amendment laws of the U.S. Constitution—
By perverting all of my local communities and pools of the public, part of the
"Bill of Rights ... right to a jury trial in (this) civil case" (please see exhibit of
evidence BO )

That defendants actions;'aS.outlined above, in 2009,2010 2011, 2012... plus
in the further past and .of recent thru today in a pattern violate 14th
Amendment laws of the U.S. Constitution—
By "deny(ing) (me) equal protection of laws... discriminat(ing) on differences
irrelevant to a legitimate government objective... such as (my) race; gender..." in
wholly ineffective and nonsensical practices (please see exhibit of evidence BO )

30

REASONS FOR GRANTING THE WRIT

Please hear this case, it's important to all people of our United States.

It's important that the laws of our land, its NYC, my birthplace and home,
keep up with the technologies of today and those being spread by 9/11 hypotheses
and now rigid paranoia of the agencies tasked with protecting us, and stop those
very agencies from now in fact harming us. These agencies harbor and deploy
weapons they're using fallaciously as just surveillance. Same as a police officer's
gun, traditional or the stun-gun variety, requiring report and disclosure of
its use/discharge, so too are their weaponry of
sound-infliction
gas, chemical and odor deployment
cutting and piercing via remote
and muscle, body and mind manipulation
in need of oversight, documentation, accountability and most of all public
scrutiny. It is only with public scrutiny that imbalances like racial discrimination
and hate crimes can be at some time, if only ultimately, cured. And here, there's the
chance that harm to the wider United States population may be avoided. A spotlight
is needed, with attention to the subject of lethal or other life altering and without
oversight, report and record, unlawful technologies deployed remotely onto a person
with expectation then of some healthy doses of reigning in those actions and curbing

31

their policies with modest measures of accountability.
Supplying the public with no means of reasonable assuredness
against harmful remote reach by current technologies, no records to
retrieve, no end nor conclusion to invasions onto a person's reputation,
and no defense against government encroachment just because it's
hidden by means of current technologies, while just as unlawful as it
ever was, is as dangerous as exposure to cancer-causing substances when
prolonged and acute, and should thereby be grounds enough to bring a
case. Just like the late and endeared justice Ruth Bader Ginsburg found in
Norfolk & Western Railway v. Ayers, 538 US 135 (2003), I believe, where she
articulated that the fear of cancer from asbestos poisoning is enough to bring a
claim. Samely here, specifically, fear, of detriment from harm.
Please understand those incidents outlined above that describe how I've
been harmed and those reasons for this case. Please see its national importance
and even further as we are more a global society than ever before and may still
play role as a world example. Our very system of Constitutional Law that well
defined us in the past, as a fair and free nation, is under threat by wanton,
unchecked and reprehensible uses of technology by government/law enforcement
that are failing to inform the public nor respect already established law and
boundaries.
I've brought suit against the defendants twice before this over the past 3 decades
and each time merit was found by the courts and appearances got underway.

32

jTh

fl

Unfortunately, with homelessness then ensuing and taking grip of my

life, I lost

ability to continue each process. Now, with much firmer footing of having
6+ years now, having overcome serious health issues and disabilities,
know-how on handling the ongoing and now recognizable patterned

and with good

encroachments

and offenses by these supposed-to-be law enforcement actors complaining
have every confidence modest that I can and determinedly will, see

a home for

of here, I

this case •

through, should you decide to hear it.

33

CONCLUSION
With the NYPD training other police forces around the country, also since
9/11, the so-called though possibly planned success' they're claiming of these new
and awful, unlawful practices is poised to be repeated elsewhere.. While it's true the
9/11 attacks haven't occurred again, they were indisputably 'enabled', perhaps by
negligence, perhaps by construed coordination, but in no case by some
masterminded rocket science. The crime perpetrated was plain, right? I don't think
it took magnification and x-ray bastions to detect or deter. A simple observation
would have been good, right? Land then a mere interference, straightforward, like,
"Wait a minute," "You want to fly a what, with a who, and the Saudis are paying
you?..." I bet they weren't even paying taxes, but affording pilot lessons? I can't even
buy coconut milk without these groups smearing my name all around my local
Wholefoods market as if they're figuring out where I get the funds, and the 9/11
hijackers? They hijacked planes. By learning to fly planes. That's not momentary or
overnight. Why are those of us in the general public having to be now dissected in
real time of each and every way conceivable under 24 hour a day 7 days a week
`surveillance' that really in actuality is a forging and defrauding of a person's life,
agency, body and abilities while the officials perpetrating such ills exploit rights
and permissions afforded for trusted levels of sound use and judgment?
And now we have Covid. I don't even get the regular flu. Bird flu went right
over my head and I don't much comprehend the perplexity of washing hands. Some
weren't washing their hands? Even more so, I haven't spent time in China. Maybe

34

all the bathroom euphonics would serve well in laboratories in China, but here?
Anyway, we're all suffering now, we shouldn't have to suffer fools. That should earn
us a reverse tax wherever money is accepted.
But this case won't ask for that, it simply asks for technologies, and those
using them, to reflect the currency of the day. In 2020, now into 2021, none of us
want to be infected with some deadly virus or the equivalent. This case contends
that government encroachment, the kind the Constitution defends us, the people,
from; and the kind I'm complaining of, are dangerously and definitely akin to cancer
from injurious exposure. As the nation's beloved justice, your Ruth Bader Ginsburg
determined when considering asbestos exposure/injury and whether the fear of
cancer from it is enough to bring a case, fear of detriment from harm is most
certainly enough to bring a case in similarly suffered hazards, is it not? I hope I'm
not misconstruing her words, because when I came across them in writing my
papers to the lower court, they brought me great comfort and solace. To know
someone in the highest court of our land, cared enough to consider that among a
person's most innate rights, is the right to be free from avoidable fear when a little
prudence is insisted like not using hazardous elements in building materials. Like
in the sentiments and oaths of public service that concur "first do no harm."
Even an above-board investigation taking 12, now 13 years of impacting the
`accused', would be too long. That in itself is detrimental.
The lower courts were erroneous in their determination of lack of facts and
arguable basis. Those were laid out plainly, in writing. Those two courts just needed
35

to apply the strongest argument of law, like their own. Triestman,case supplied
them in Triestman v. Fed. Bureau of Prisons, 470 F.3d 471, 474(2d Cir.2006) and
hear the case. Not every case is going to be a.slam-shut occurrence, like the one
cited here, where the actors are identified and culpability clear. Our government
uses undercover and hidden technologies and tells certain actors/agents they're
undercover and hidden too. That's not enough nor ok. They need to tell those
players that their actions, however, will still be monitored, reviewed and subject to
public oversight.

The United States District Court for the Southern District and its United
States Court of Appeals dismissed this case of index number 19-cv-9979 and 20-240,
respectively, on December 20, 2019 and August 7, 2020 on grounds of having no
factual or arguable basis. Your clerk's office has extended deadline to be 150 days,
to which I needed an extra 5, this week requesting, before the deadline, such 5-day
extension. Please order up all the papers from their records and see the facts and
legally arguable basis that I tried to report in my original complaint and subsequent
appeal. Please accept this case.

The failure of the lower court here to apply their own found requirement in a
pro se case to consider strongest legal argument, was I'm convinced, wrong. Since it
is involving of such nationally impactful merits, won't you best hear the case and
reinforce reliable laws of constitutional protections against unreasonable

36

government encroachment to each of us citizens, prisoners, officials or other, even
when under attention of hidden law enforcement activities? They are activities
none-the-less and as I contend and as I've seen, are twice as impactful as those
openly perpetrated.
Body-cam videos are one source of accountability that technology can employ
to better police/law enforcement interactions with the public, suspects, prisoners,...
however, there need to be guidelines and requirements, with those and any
technologies used, even if only of reports and records retrievable. The video of an
officer's interaction with and/or against the public has been measurably positive.
(please see exhibit of evidence CO to be presented later). Hidden interactions can
and should be monitored/recorded with today's capabilities, as well.
Thank you for your time and most supreme consideration. As a litigant
without a lawyer I promise to remain succinct, factual, prudent, true and reliable.
To tell my case squarely. I'll follow all rules and procedures. With faith in God and
your trusted jurisdiction, I pray for your soundest, nationally needed judgement and
ruling, on this matter.

Most sincerely,

Loretta Jones
December 11, 2020
and March 11, 2021 to correct filing

37

